TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Changing Excise Files Information Retrieval
                System Development Requirements Resulted
                  in Increased Costs and Schedule Delays



                                           June 30, 2009

                              Reference Number: 2009-20-093




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 30, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Changing Excise Files Information Retrieval
                                 System Development Requirements Resulted in Increased Costs and
                                 Schedule Delays (Audit # 200820032)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) and its contractors are making improvements to the Excise Files Information
 Retrieval System (ExFIRS) using sound systems development practices and to follow up on prior
 ExFIRS findings. This review was part of our annual audit plan coverage under the major
 management challenge of Modernization of the IRS.

 Impact on the Taxpayer
 In late 1998, the IRS began developing the ExFIRS to improve motor fuel excise tax compliance
 and identify and reduce fraud. The IRS has spent more than $108 million to develop the
 ExFIRS, and in April 2006 began using it to perform data matching to identify potential
 noncompliant taxpayers. However, changing system requirements resulted in increased costs of
 almost $2.8 million and delayed implementation of the first phase of the ExFIRS modernization
 by 1 year. Improvements are needed to help ensure that continued ExFIRS development is
 efficient and effective at identifying and reducing motor fuel tax evasion.

 Synopsis
 The IRS is developing and maintaining the ExFIRS, which was mandated by Congress1 as a
 result of motor fuel excise tax evasion schemes perpetrated by organized crime syndicates in the
 late 1980s and early 1990s. Motor fuel excise taxes are the major source of funding for the

 1
     Pub. L. No. 105-178, 112 Stat. 107 (1998).
                 Changing Excise Files Information Retrieval System Development
                  Requirements Resulted in Increased Costs and Schedule Delays



Highway Trust Fund.2 Since June 1998, Congress has appropriated almost $88 million in
Highway Trust Fund monies to develop the ExFIRS and expand enforcement efforts on
noncompliant taxpayers. In addition, through 2004 the IRS had spent approximately $20 million
of its own funds for the development and implementation of the ExFIRS. In October 2006, the
IRS completed transitioning the system development and operations and maintenance of the
ExFIRS from the Small Business/Self-Employed Division to the Modernization and Information
Technology Services organization.
The IRS has taken actions to improve system development effectiveness and address concerns
identified in our prior audit report.3 These actions include elevating the ExFIRS to a major
information technology investment; ensuring the ExFIRS Project Office updates and completes
appropriate project management documents; and ensuring the ExFIRS Project Office includes
measurable performance standards in statements of work, clearly defines deliverables, and
implements an effective plan for monitoring contractor performance.
While actions have been taken, additional improvements are needed to ensure more efficient and
effective system development. For example, in October 2007, the ExFIRS Project Team began a
modernization upgrade of two of the six ExFIRS subsystems4 using the Tax Exempt and
Government Entities Division’s Reporting and Examination System (TREES) Compliance Case
Management System as the platform. The decision to use the TREES was based on a
recommendation from a study conducted by the Unisys Corporation. However, in
February 2008, Small Business/Self-Employed Division Excise Tax Program personnel saw a
demonstration of the new Large and Mid-Size Business Division’s Issue Management System
and recommended that consideration be given to moving the two ExFIRS subsystems to this new
platform. The Unisys Corporation study provided a detailed analysis comparing the TREES
capabilities and functionality to the requirements for the ExFIRS modernization, but did not
provide a similar analysis of the Issue Management System. The Unisys Corporation stated in its
report that insufficient information and time were available to complete a detailed study of the
then current Issue Management System. In addition, the Unisys Corporation study was not
extended to allow for an analysis of the new version of the Issue Management System.
In April 2008, the IRS hired the MITRE Corporation to conduct a study to determine whether the
new version of the Issue Management System was a better platform than the TREES platform.
The MITRE Corporation study concluded that both platforms technically met the user
requirements, but stated that Small Business/Self-Employed Division Excise Tax Program
personnel were skeptical that the TREES could support their processes. In August 2008, IRS
executives approved the migration of the two ExFIRS subsystems to the Issue Management


2
  See Appendix VII for a glossary of terms.
3
  The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 18, 2005).
4
  See Appendix VI for a description of the subsystems.
                                                                                                  2
              Changing Excise Files Information Retrieval System Development
               Requirements Resulted in Increased Costs and Schedule Delays



System platform. The MITRE Corporation study did not include an explanation of why the Issue
Management System was the preferred system, and Small Business/Self-Employed Division
Excise Tax Program management did not respond to our repeated requests for details on what
features or functionality made the new Issue Management System a better solution than the
previously approved TREES platform. The decision to move ExFIRS modernization
development to the Issue Management System increased the costs by almost $2.8 million and
delayed implementation by 1 year.
Improvements are also needed to ensure the completeness and accuracy of reported actual
system development costs. The actual amounts spent on ExFIRS modernization in Fiscal
Years 2006 and 2007 that were reported to the Reporting Compliance Executive Steering
Committee did not match the amounts shown in the ExFIRS Budget by Fiscal Year and Release.
In addition, the total costs reported for Fiscal Years 2006 through 2008 decreased by
approximately $1.77 million between the October 2008 and January 2009 reports.

Recommendations
The Chief Technology Officer should ensure that 1) all future system redesign alternatives are
adequately considered before final alternative selection, and 2) the processes for collecting,
computing, verifying, and reporting financial data are clearly understood and followed by Project
Office personnel so that the information reported is accurate and can be relied upon when
making project decisions.

Response
IRS management agreed with our recommendations and plans to take corrective actions
including reemphasizing the importance and requirement of completing an alternatives analysis
when making an alternative selection for new investments, with the involvement of the
architecture and engineering organization. Also, the Modernization and Information Technology
Services organization will review procedures and processes in place for collecting, computing,
verifying, and reporting financial data and develop mechanisms to ensure accuracy when
reporting the data. Management’s complete response to the draft report is included as
Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                                3
                    Changing Excise Files Information Retrieval System Development
                     Requirements Resulted in Increased Costs and Schedule Delays




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Progress Has Been Made in Further Developing the
          Excise Files Information Retrieval System...................................................Page 4
          Changing System Requirements Resulted in Increased
          Costs and Schedule Delays ...........................................................................Page 5
                    Recommendation 1:..........................................................Page 6

          Processes for Collecting and Reporting System
          Development Costs Need Improvement .......................................................Page 6
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Prior Audit Report Recommendations Relating to
          Systems Development and Associated Corrective Actions Completed .......Page 15
          Appendix VI – Subsystems of the Excise Files Information Retrieval
          System...........................................................................................................Page 17
          Appendix VII – Glossary of Terms ..............................................................Page 18
          Appendix VIII – Management’s Response to the Draft Report ...................Page 20
         Changing Excise Files Information Retrieval System Development
          Requirements Resulted in Increased Costs and Schedule Delays




                         Abbreviations

ExFIRS             Excise Files Information Retrieval System
FHWA               Federal Highway Administration
IRS                Internal Revenue Service
MITS               Modernization and Information Technology Services
TREES              Tax Exempt and Government Entities Division’s Reporting and
                   Examination System
                Changing Excise Files Information Retrieval System Development
                 Requirements Resulted in Increased Costs and Schedule Delays




                                          Background

The Department of the Treasury charges the Internal Revenue Service (IRS) with the
enforcement of all Federal taxes. Within the IRS, the Division of Specialty Taxes under the
Small Business/Self-Employed Division is charged with motor fuel excise tax compliance. The
Modernization and Information Technology Services (MITS) organization is charged with
developing the Excise Files Information Retrieval System (ExFIRS). Partnering with the IRS,
the Federal Highway Administration (FHWA) is responsible for stewardship of the Federal
Highway Trust Fund1 and administration of its motor fuel tax evasion program, to include system
development-related activities. Motor fuel excise tax receipts
total $30 billion to $40 billion annually and are an important
                                                                   Since June 1998, Congress
source of Federal and State revenues for our nation’s
                                                                     has appropriated almost
transportation system. These monies are the major source of           $88 million in Highway
funding for the Highway Trust Fund, accounting for almost             Trust Fund monies to
90 percent of Highway Trust Fund receipts.                            develop an excise fuel
                                                                                 reporting system.
The IRS is developing and maintaining the ExFIRS, which was
mandated by Congress as a result of motor fuel excise tax
evasion schemes perpetrated by organized crime syndicates in the late 1980s and early 1990s.
Since June 1998, Congress has appropriated almost $88 million in Highway Trust Fund monies
to develop the ExFIRS and expand enforcement efforts on noncompliant taxpayers.2 In addition,
through 2004 the IRS had spent approximately $20 million of its own funds for the development
and implementation of the ExFIRS. The current ExFIRS development effort is funded solely by
the FHWA with Highway Trust Fund monies. Figure 1 provides a breakdown of the almost
$88 million appropriated from the Highway Trust Fund for ExFIRS development efforts.




1
 See Appendix VII for a glossary of terms.
2
 See our audit report, The Fuel Excise Tax Compliance Program Has Made Significant Progress, but Program
Improvements Are Needed to Increase Highway Trust Fund Revenue (Reference Number 2009-20-051, dated
March 30, 2009), for the results of our review of the ExFIRS’ effect on the compliance program.
                                                                                                     Page 1
                Changing Excise Files Information Retrieval System Development
                 Requirements Resulted in Increased Costs and Schedule Delays



       Figure 1: ExFIRS Information Technology Development Appropriations
                             (Fiscal Years 1999–2009)

            Fiscal Year(s)                    Highway Trust Fund               IRS Funds              Totals
             1999–2004*                                    $39,897,755          $20,000,000         $59,897,755
                2005**                                      $3,600,000                      $0       $3,600,000
                2006**                                     $34,800,000                      $0      $34,800,000
                2007**                                     $42,300,000                      $0      $42,300,000
                2008**                                                 $0                   $0                  $0
                2009**                                                 $0                   $0                  $0
                Subtotal                                 $120,597,755           $20,000,000       $140,597,755
Funds Used for Excise Tax E-File                         ($32,400,000)                      $0 ($32,400,000)
and Compliance System
Total ExFIRS Development and                               $88,197,755          $20,000,000       $108,197,755
Operations and Maintenance
Source: Treasury Inspector General for Tax Administration report, The Excise Files Information Retrieval System
Has Not Been Effectively Implemented (Reference Number 2006-20-001, dated October 18, 2005), and the
January 2006 Memorandum of Understanding between the Department of Transportation and the IRS.
* Actual expenditures.
** Figures from the IRS Spend Plan. The Spend Plan provides the amount of annual funding to be received from
the Highway Trust Fund. The funds are available for multiple years, and all of the funds will be spent by the end of
Fiscal Year 2009.

In late 1998, the IRS began developing the ExFIRS to improve motor fuel excise tax compliance
and identify and reduce fraud, and in April 2006, it began using the ExFIRS to perform data
matching to identify potential noncompliant taxpayers. The ExFIRS is comprised of six
subsystems that support the collection of motor fuel industry information. It is used to conduct
automated analysis of this information to identify areas with the highest risk for nonpayment of
motor fuel excise tax liabilities. The most critical ExFIRS subsystem is the Excise Summary
Terminal Activity Reporting System, which was designed through a collaborative effort among
the IRS, the FHWA, and State and industry stakeholders to detect and prevent the existence of
illegal tax evasion schemes by tracking the movement of motor fuel to and from approved
terminals. A description of the subsystems is provided in Appendix VI.
In October 2006, the IRS completed transitioning the system development and operations and
maintenance of the ExFIRS from the Small Business/Self-Employed Division to the MITS
organization’s Applications Development ExFIRS Project Office. The use of the ExFIRS


                                                                                                           Page 2
              Changing Excise Files Information Retrieval System Development
               Requirements Resulted in Increased Costs and Schedule Delays



applications continues to be controlled by the Excise Tax Program Office within the
Small Business/Self-Employed Division.
Over the next 2½ years after the MITS organization became responsible for the ExFIRS project,
the aging legacy information systems reached the end of their operational life and had to be
replaced with new technology and revised processes. The new technology included upgraded
server platforms and operating systems and the movement of legacy applications to a new
version of the database. System development efforts focusing on the ExFIRS infrastructure
modernization are being implemented using a phased approach, with the redesign of the Excise
Fuel Online Network and Excise Tax Agent Center subsystems due in September 2009 and
redesign of the Excise Tax Registration Authorization System subsystem due in December 2009.
However, some legacy applications are still being maintained.
The costs associated with the subsystems modernization are being paid for with remaining funds
available from Fiscal Years 2006 and 2007 appropriations. The current Highway Trust Fund
appropriation for the ExFIRS is scheduled to expire in Fiscal Year 2009. Therefore, the IRS will
not receive any additional funds from the Highway Trust Fund until additional appropriations are
authorized by Congress. While the FHWA expects that the IRS will receive additional Highway
Trust Fund monies in Fiscal Year 2010, the appropriations may not be authorized prior to the
beginning of the fiscal year. Meanwhile, the IRS is considering its options to pay for ExFIRS
operations and maintenance costs until additional Highway Trust Fund monies are available.
This review was performed at the MITS organization’s Applications Development offices in
New Carrollton, Maryland, and the Small Business/Self-Employed Division’s Excise Tax
Program offices in Washington, D.C., during the period August 2008 through March 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                Changing Excise Files Information Retrieval System Development
                 Requirements Resulted in Increased Costs and Schedule Delays




                                   Results of Review

Progress Has Been Made in Further Developing the Excise Files
Information Retrieval System
In a prior audit report,3 we made seven recommendations to improve the ExFIRS development
project and compliance program. Appendix V provides details on the recommendations related
to the ExFIRS development activities and the corrective actions that were taken by the IRS. The
status of the compliance program recommendations and corrective actions were reviewed in a
separate audit.4 Office of Management and Budget Circular A-50, Audit Followup, emphasizes
the importance of followup to monitor the implementation of resolved audit recommendations
and ensure that promised corrective actions are actually taken.
The IRS has taken the following actions to improve system development effectiveness and
address concerns identified in our prior report:
    •   Elevating the ExFIRS to a major information technology investment and updating the
        Exhibit 53.
    •   Ensuring the ExFIRS Project Office updates appropriate project management documents
        (e.g., project management plan and work breakdown structure) as required during the
        development phase and completes a transition management plan for moving the ExFIRS
        project to operations and maintenance status.
    •   Ensuring the ExFIRS Project Office includes measurable performance standards in
        statements of work, clearly defines deliverables, and implements an effective plan for
        monitoring contractor performance.
The above actions generally address our previous recommendations and have improved the
effectiveness and efficiency of the ExFIRS system development. The corrective actions also
address the Office of Management and Budget Circular A-123, Management’s Responsibility for
Internal Control, which requires agencies to take timely and effective action to correct
management control deficiencies and to complete implementation of agreed corrective actions
within 1 year to the extent practicable.



3
  The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 18, 2005).
4
  The Fuel Excise Tax Compliance Program Has Made Significant Progress, but Program Improvements Are
Needed to Increase Highway Trust Fund Revenue (Reference Number 2009-20-051, dated March 30, 2009).
                                                                                                   Page 4
                  Changing Excise Files Information Retrieval System Development
                   Requirements Resulted in Increased Costs and Schedule Delays



While the IRS has taken several actions to improve the ExFIRS development, there are a couple
of areas (system requirements and collecting and reporting actual costs) that need to be improved
to help ensure continued ExFIRS development is efficient and effective at identifying and
reducing motor fuel tax evasion.

Changing System Requirements Resulted in Increased Costs and
Schedule Delays
In October 2007, the ExFIRS Project Team began a modernization upgrade of two of the six
ExFIRS subsystems using the Tax Exempt and Government Entities Division’s Reporting and
Examination System (TREES) Compliance Case Management System as the platform. The
decision to use the TREES was based on a recommendation from a study conducted from July to
September 2007 by the Unisys Corporation, and both MITS organization and Small
Business/Self-Employed Division Excise Tax Program personnel agreed with the decision.
However, in February 2008, Small Business/Self-Employed Division Excise Tax Program
personnel saw a demonstration of the new Large and Mid-Size Business Division’s Issue
Management System and recommended that consideration be given to moving the two ExFIRS
subsystems to this new platform. In April 2008, the IRS hired the MITRE Corporation to
conduct a study to determine whether the new version of the Issue Management System was a
better platform than the TREES platform. The MITRE Corporation study concluded that both
platforms technically met the user requirements, but stated that Small Business/Self-Employed
Division Excise Tax Program personnel were skeptical that the TREES could support their
processes. Although the MITRE Corporation study did not provide technical details of why the
Issue Management System was the preferred system, it recommended that the IRS implement the
ExFIRS modernization of the two subsystems using the new version of the Issue Management
System instead of the TREES platform.
In August 2008, IRS executives approved the migration of the two ExFIRS subsystems to the
Issue Management System platform. We repeatedly asked Small Business/Self-Employed
Division Excise Tax Program management for details on what features or functionality made the
new Issue Management System a better solution than the previously approved TREES platform.
However, management has not responded to our requests.
The Clinger Cohen Act of 19965 states that Federal Government agencies should have a process
in place for analyzing, tracking, and evaluating the risks and results of all major capital
investments made by an executive agency for information systems. The process shall cover the


5
 (Federal Acquisition Reform Act of 1996) (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 5
               Changing Excise Files Information Retrieval System Development
                Requirements Resulted in Increased Costs and Schedule Delays



life of each system and shall include explicit criteria for analyzing the projected and actual costs,
benefits, and risks associated with the investments. The process should also ensure that costs
and benefits of all the alternatives are compared consistently. Agencies shall provide the means
for senior management to obtain timely information regarding the progress of an investment in
an information system, including a system of milestones for measuring progress, on an
independently verifiable basis, in terms of cost, capability of the system to meet specified
requirements, timeliness, and quality.
After reviewing the Unisys Corporation’s study, it appears that, while a detailed analysis
comparing the TREES capabilities and functionality to the requirements for the ExFIRS
modernization was completed, a similar analysis was not performed of the Issue Management
System. The Unisys Corporation report stated that there were insufficient information and time
available to complete a detailed study of the then current Issue Management System. In
addition, the Unisys Corporation study was not extended to allow for an analysis of the new
version of the Issue Management System.
The decision to use the TREES Compliance Case Management System rather than take the
necessary time to adequately consider the new version of the Issue Management System, and the
subsequent decision to move the ExFIRS modernization development to the Issue Management
System, resulted in increased costs of almost $2.8 million and delayed implementation of the
first phase of the ExFIRS modernization by 1 year.

Recommendation
Recommendation 1: The Chief Technology Officer should ensure that all future system
redesign alternatives are adequately considered before final alternative selection.
       Management’s Response: Management agreed to reemphasize the importance and
       requirement of completing an alternatives analysis when making an alternative selection
       for new investments, with the involvement of the architecture and engineering
       organization.

Processes for Collecting and Reporting System Development Costs
Need Improvement
The actual amounts spent on ExFIRS modernization in Fiscal Years 2006 and 2007 that were
reported to the Reporting Compliance Executive Steering Committee did not match the amounts
shown in the ExFIRS Budget by Fiscal Year and Release. In addition, the total actual costs
reported for Fiscal Years 2006 through 2008 decreased by approximately $1.77 million as
reported on the January 2009 report when compared to the October 2008 report. The Executive
Steering Committee meeting minutes did not include an explanation for the decrease in costs.
Figure 2 presents the reported ExFIRS modernization actual costs.

                                                                                              Page 6
               Changing Excise Files Information Retrieval System Development
                Requirements Resulted in Increased Costs and Schedule Delays



                Figure 2: Reported ExFIRS Modernization Actual Costs
                                                                                      Fiscal Years
                                              Fiscal Year Fiscal Year Fiscal Year
                  Document                                                             2006–2008
                                                 2006        2007        2008
                                                                                         Total

    ExFIRS Budget

       Expenditure Amount Reported as of
                                                   $0        $404,000       N/A
       August 2008
    Reporting Compliance Executive
    Steering Committee Expense Report

       Costs Reported on October 9, 2008        $156,971    $4,486,965   $4,412,125   $9,056,061

       Costs Reported on January 6, 2009        $387,840    $4,525,408   $2,369,626   $7,282,874

    Difference in Reported Actual Costs
                                                                                      ($1,773,187)
    (January 2009 – October 2008)
   Source: IRS ExFIRS project documentation and our calculations.

While preparing for a meeting to discuss the potential discrepant reporting, ExFIRS Project
Office personnel discovered errors in the calculations and reporting. After discovering the
errors, the January 2009 actual costs were recalculated to ensure accurate reporting in future
briefings.
Office of Management and Budget Circular A-123 requires that management controls be
established to reasonably ensure that: 1) obligations and costs are in compliance with applicable
law; 2) funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and 3) revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial and
statistical reports and to maintain accountability over the assets. Information should be
communicated to relevant personnel at all levels within an organization. The information should
be relevant, reliable, and timely. It is also crucial that an agency communicate with outside
organizations as well, whether providing information or receiving it.
Project Office personnel stated that they were not aware of the requirement that disbursements
and expenditures are included in the cost amounts. In addition, calculation and input errors were
made while preparing the consolidated spreadsheet and related reports because the Project Office
did not ensure that the financial information reported, such as actual costs, was completed and
accurate.




                                                                                                Page 7
               Changing Excise Files Information Retrieval System Development
                Requirements Resulted in Increased Costs and Schedule Delays



Reporting inaccurate cost information hinders management’s ability to make fully informed
financial decisions for projects and increases the risk that actual costs will exceed the project
budget, potentially putting millions of taxpayer dollars at risk.

Recommendation
Recommendation 2: The Chief Technology Officer should ensure that the processes for
collecting, computing, verifying, and reporting financial data are clearly understood and
followed by Project Office personnel so that the information reported is accurate and can be
relied upon when making project decisions.
       Management’s Response: Management agreed to review procedures and processes
       in place for collecting, computing, verifying, and reporting financial data and develop
       mechanisms to ensure accuracy when reporting the data.




                                                                                              Page 8
                 Changing Excise Files Information Retrieval System Development
                  Requirements Resulted in Increased Costs and Schedule Delays



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the IRS and its contractors are
making improvements to the ExFIRS using sound systems development practices and to follow
up on prior ExFIRS findings.1 To accomplish these objectives, we:
I.      Evaluated the effectiveness of project management controls surrounding the development
        of the ExFIRS.
        A. Determined whether key documents (e.g., business case, project management plan,2
           project schedule, and milestone concurrence) were completed and approved prior
           to/during the development and implementation of the ExFIRS.
        B. Determined how system development issues, problems, and risks are managed by
           interviewing the project manager and reviewing project documentation and Executive
           Steering Committee meeting minutes.
        C. Determined whether the ExFIRS project was effectively managed to control project
           costs and schedule and monitor contractor performance.
        D. Met with the MITS organization’s Applications Development organization and
           ExFIRS Project Office personnel, and the Small Business/Self-Employed Division’s
           Excise Tax Program office personnel to determine the status of system development
           activities.
        E. Evaluated the IRS decision to move the ExFIRS from the TREES platform to the
           Issue Management System platform and determined the costs and other consequences
           associated with the move.
        F. Reviewed the Memorandum of Understanding between the IRS and the Department
           of Transportation to identify the agreed to ExFIRS development and oversight
           activities and reviewed project documentation to verify required activities are being
           completed.




1
  The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 18, 2005).
2
  See Appendix VII for a glossary of terms.
                                                                                                       Page 9
             Changing Excise Files Information Retrieval System Development
              Requirements Resulted in Increased Costs and Schedule Delays



II.   Determined whether corrective actions to address prior recommendations related to
      ExFIRS development have been effectively implemented.
      A. Reviewed the associated Joint Audit Management Enterprise System reports to
         identify the current status of the corrective actions for the following prior
         recommendations.
         1. Recommendation 4: The Chief Information Officer should elevate the ExFIRS to
            a major information technology investment, update the Exhibit 53, and prepare an
            Exhibit 300.
         2. Recommendation 6: The Commissioner, Small Business/Self-Employed
            Division, should ensure the ExFIRS Project Office updates appropriate project
            management documents (i.e., project management plan and work breakdown
            structure), as required during the development phase; conducts a stress test to
            ensure sufficient system capacity; completes a transition plan for moving the
            project to operations and maintenance status; and schedules a postimplementation
            review.
         3. Recommendation 7: The Commissioner, Small Business/Self-Employed
            Division, in coordination with the Chief Information Officer and the Director,
            Procurement, should ensure the ExFIRS Project Office includes measurable
            performance standards in statements of work, clearly defines deliverables,
            implements an effective plan for monitoring contractor performance, and moves
            to firm fixed-price contracts.
      B. Reviewed documentation to verify closed corrective actions have been effectively
         implemented.




                                                                                     Page 10
              Changing Excise Files Information Retrieval System Development
               Requirements Resulted in Increased Costs and Schedule Delays



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Mark Carder, Senior Auditor
Wallace Sims, Senior Auditor
Tina Wong, Senior Auditor
Olivia DeBerry, Auditor
Linda Screws, Auditor




                                                                                       Page 11
             Changing Excise Files Information Retrieval System Development
              Requirements Resulted in Increased Costs and Schedule Delays



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Chief Information Officer OS:CTO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Stakeholder Management Division OS:CTO:SM
Chief, Excise Tax Operations, Small Business/Self-Employed Division SE:S:SP:EX
Director, Compliance, Applications Development OS:CTO:AD:C
Director, Enforcement, Applications Development OS:CTO:AD:C:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Program Oversight Office OS:CTO:SM:PO




                                                                                 Page 12
                 Changing Excise Files Information Retrieval System Development
                  Requirements Resulted in Increased Costs and Schedule Delays



                                                                                  Appendix IV

                                   Outcome Measures

 This appendix presents detailed information on the measurable impact that our recommended
 corrective actions will have on tax administration. These benefits will be incorporated into our
 Semiannual Report to Congress.

 Type and Value of Outcome Measure:
 •    Inefficient Use of Resources – Actual; $2,789,133 (see page 5).

 Methodology Used to Measure the Reported Benefit:
 In August 2008, IRS executives approved the migration of the two ExFIRS subsystems to the
 Issue Management System platform. Because development work on the TREES platform had
 already begun, the decision to change platforms resulted in the inefficient use of resources.
 Figure 1 provides a breakdown of the funds spent due to the initial study not including a detailed
 analysis of the Issue Management System and the subsequent decision to change platforms. The
 decision to change platforms also resulted in a 1-year delay in the ExFIRS modernization
 implementation.
     Figure 1: Increased Costs Due to Changing Modernization Implementation From
              the TREES Platform to the Issue Management System Platform

                                    Expense Type                                       Amount
 TREES Development Work                                                                 $2,405,171
 Disengage From the TREES Development Effort                                              $160,000
 MITRE Corporation Study                                                                  $223,962
 Total                                                                                  $2,789,133
Source: IRS ExFIRS project documentation.

 Type and Value of Outcome Measure:
 •    Reliability of Information – Actual; $1,773,187 (see page 6).

 Methodology Used to Measure the Reported Benefit:
 The actual amounts spent on ExFIRS modernization in Fiscal Years 2006 and 2007 that were
 reported to the Reporting Compliance Executive Steering Committee did not match the amounts

                                                                                           Page 13
              Changing Excise Files Information Retrieval System Development
               Requirements Resulted in Increased Costs and Schedule Delays



shown in the ExFIRS Budget by Fiscal Year and Release. In addition, the total actual costs
reported for Fiscal Years 2006 through 2008 decreased by approximately $1.77 million as
reported on the January 2009 report when compared to the October 2008 report. The Executive
Steering Committee meeting minutes did not include an explanation for the decrease in costs.
While preparing for a meeting to discuss the potential discrepant reporting, ExFIRS Project
Office personnel discovered errors in the calculations and reporting. After discovering the
errors, the January 2009 actual costs were recalculated to ensure accurate reporting in future
briefings. Figure 2 presents the reported ExFIRS modernization actual costs.
               Figure 2: Reported ExFIRS Modernization Actual Costs
                          Fiscal Years 2006 Through 2008

                Executive Steering Committee Expense Report           Total
                Modernization Costs Reported on October 9, 2008     $9,056,061

                Modernization Costs Reported on January 6, 2009     $7,282,874

                Difference in Reported Modernization Costs          $1,773,187
               Source: IRS ExFIRS project documentation.




                                                                                       Page 14
                Changing Excise Files Information Retrieval System Development
                 Requirements Resulted in Increased Costs and Schedule Delays



                                                                                         Appendix V

    Prior Audit Report Recommendations Relating to
          Systems Development and Associated
              Corrective Actions Completed

In our prior audit report,1 we made seven recommendations (four compliance program and three
system development). The IRS identified eight corrective actions in response to the
recommendations and reported that the corrective actions had been completed and closed as of
September 7, 2006. Three of the eight corrective actions related to the system development
recommendations (the numbering used in this appendix reflects the recommendation numbers in
our prior audit report). The remaining five corrective actions relate to the ExFIRS compliance
program and were reviewed in a separate audit.2
We recommended that the Chief Information Officer should:
    4. Elevate the ExFIRS to a major information technology investment, update the
       Exhibit 53,3 and prepare an Exhibit 300.
        Corrective action taken: We determined that the ExFIRS was appropriately reclassified
        as a major investment in the Fiscal Year 2008 Exhibit 53 submitted to the Department of
        the Treasury and an Exhibit 300 was prepared. In addition, the ExFIRS project is
        identified in the Information Technology Project Control Review dated
        September 2, 2008, as a major project and the ExFIRS (New Development) project is
        also identified as a major project in the ExFIRS Project Management Plan.
We recommended that the Commissioner, Small Business/Self-Employed Division, should:
    6. Ensure the ExFIRS Project Office updates appropriate project management documents
       (e.g., project management plan and work breakdown structure), as required during the
       development phase; conducts a stress test to ensure sufficient system capacity; completes
       a transition plan for moving the project to operations and maintenance status; and
       schedules a postimplementation review.




1
  The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 18, 2005).
2
  The Fuel Excise Tax Compliance Program Has Made Significant Progress, but Program Improvements Are
Needed to Increase Highway Trust Fund Revenue (Reference Number 2009-20-051, dated March 30, 2009).
3
  See Appendix VII for a glossary of terms.
                                                                                                  Page 15
           Changing Excise Files Information Retrieval System Development
            Requirements Resulted in Increased Costs and Schedule Delays



   Corrective action taken: We determined that the ExFIRS Project Office is effectively
   updating and maintaining project management documents as required during the
   development phase. The IRS transitioned the system development and operations and
   maintenance of the ExFIRS project from the Small Business/Self-Employed Division to
   the MITS organization. The ExFIRS Project Office reviewed the project files to identify
   additional documentation that needed to be prepared, and it prepared the documents.
   In the prior report, we recommended that the ExFIRS Project Office schedule a
   postimplementation review; however, management’s response did not specifically
   comment on that part of the recommendation. The project documents we reviewed
   indicate a postimplementation review will be done. We also previously recommended
   that the ExFIRS Project Office ensure stress testing is conducted to ensure sufficient
   system capacity; however, management did not specifically comment on the
   recommendation. MITS organization management indicated that the ExFIRS
   development team has been working to refine the performance requirements for
   modernization and will allocate them to the infrastructure and the applications, as
   appropriate. Once this work is completed, the team will determine what testing is
   appropriate.
7. In coordination with the Chief Information Officer and the Director, Procurement, ensure
   the ExFIRS Project Office includes measurable performance standards in statements of
   work, clearly defines deliverables, implements an effective plan for monitoring contractor
   performance, and moves to firm fixed-price contracts.
   Corrective action taken: The IRS is ensuring that statements of work include measurable
   performance standards and that deliverables are clearly defined. Also, the IRS is
   incorporating measures for monitoring the effectiveness of contractor performance.
   Upon transition of the ExFIRS and as operation and maintenance progresses, the MITS
   organization will enter firm fixed-price contracts when possible while following the
   guidance issued on April 30, 2004, which established Business Systems Modernization
   policy on fixed-price contracting.




                                                                                     Page 16
                   Changing Excise Files Information Retrieval System Development
                    Requirements Resulted in Increased Costs and Schedule Delays



                                                                                 Appendix VI

             Subsystems of the Excise Files Information
                        Retrieval System

The ExFIRS is an umbrella system made up of six subsystems that support the collection of
motor fuel industry information, automated analysis of this information, and identification of
areas with the highest risk for nonpayment of excise taxes.
1. Excise Summary Terminal Activity Reporting System – A repository of monthly information
   documents from fuel terminal operators and carriers detailing the receipts and disbursements
   of liquid products passing through a taxable fuel storage and distribution facility. The
   information documents can be filed on paper or electronically, with certain filings statutorily
   required to be made electronically.1 Return information is provided to the States in
   accordance with appropriate disclosure laws.
2. Excise Tax Registration Authorization System – A centralized database containing
   information relating to the Application for Registration (For Certain Excise Tax Activities)
   (Form 637). It provides centralized data entry (key entry and scanned), monitoring, and
   reporting of all Form 637 registrants.
3. Excise Fuel Online Network – An integrated case processing and tracking system used by the
   fuel compliance officers and group managers for the Dyed Diesel Program.
4. Excise Tax Online Exchange – A repository of State records housed by the IRS. The data
   come from the States but are available to other States and the IRS, under disclosure
   agreements.
5. Excise Tax Agent Center – A system that automates the processes used to work cases/returns
   selected for review. A case will move from classification, to the group manager, to the
   revenue agent who will conduct the review. Revenue agents and managers will work/review
   cases and save work in progress on the user workstation and on the ExFIRS.
6. Excise Management Information System Data Warehouse and Operational Database – A
   database that provides a common data management solution, from disparate legacy databases
   and information stores, created from a variety of sources. It contains information gathered
   from the various ExFIRS subsystems, as well as IRS sources and United States Customs
   import information pertaining to taxable commodities.



1
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                          Page 17
              Changing Excise Files Information Retrieval System Development
               Requirements Resulted in Increased Costs and Schedule Delays



                                                                             Appendix VII

                             Glossary of Terms

Dyed Diesel Fuel Program            A program that exempts diesel fuel and kerosene from tax
                                    if the fuel is dyed red (usually at a refinery or terminal)
                                    under Department of the Treasury regulations and used for
                                    prescribed nontaxable off-road purposes, such as in
                                    refrigeration units on trailers, off-road diesel-powered
                                    equipment, and home heating.
Excise Tax E-File                   A system that supports electronic filing of the Quarterly
and Compliance System               Federal Excise Tax Return (Form 720), Heavy Highway
                                    Vehicle Use Tax Return (Form 2290), and Claim for
                                    Refund of Excise Taxes (Form 8849).
Exhibit 53                          An information technology investment portfolio required
                                    by Office of Management and Budget Circular A-11,
                                    Preparation, Submission, and Execution of the Budget.
Exhibit 300                         A Capital Asset Plan and Business Case required by the
                                    Office of Management and Budget.
Firm Fixed-Price Contracts          Contracts in which all parties agree that the contractor
                                    assumes the risk for profit and loss and must complete the
                                    job satisfactorily at a fixed price.
Highway Trust Fund                  A fund established as a mechanism to provide dependable
                                    financing for Federal Government highway construction.
                                    This fund is a critical source of funding for Department of
                                    Transportation programs. It receives its revenue from
                                    highway use taxes, including excise taxes on motor fuels
                                    and truck-related taxes on truck tires, sales of trucks and
                                    trailers, and heavy vehicle use.
Issue Management System             A computer application used during a tax examination of a
                                    Large and Mid-Size Business Division taxpayer. It is
                                    used to store, track, and manage case information.
Joint Audit Management Enterprise   The Department of the Treasury’s automated audit
System                              tracking and management control system.


                                                                                       Page 18
              Changing Excise Files Information Retrieval System Development
               Requirements Resulted in Increased Costs and Schedule Delays




Memorandum of Understanding         A document that expresses mutual accord on an issue
                                    between two or more parties. It identifies the contracting
                                    parties, spells out the subject matter of the agreement and
                                    its objectives, summarizes the essential terms of the
                                    agreement, and is signed by the contracting parties.
Project Management Plan             A document that describes the objectives of the project,
                                    defines the scope of the project, and describes the
                                    approach to managing the project for success.
Refinery                            A facility used to produce taxable fuel and from which
                                    taxable fuel may be removed by pipeline, by vessel, or at a
                                    rack.
Tax Exempt and Government           A computer application used by Tax Exempt and
Entities Division’s Reporting and   Government Entities Division employees to perform
Examination System                  inventory control, compliance testing, tax computing,
                                    education and outreach, and team examination monitoring.
Terminal                            A storage and distribution facility for taxable fuel that is
                                    supplied by pipeline or vessel and from which taxable fuel
                                    may be removed at a terminal rack.
Terminal Rack                       A mechanism capable of delivering taxable fuel into a
                                    means of transport other than a pipeline or vessel.
Transition Management Plan          A document that facilitates the management of activities
                                    associated with the smooth transfer of modernized
                                    business capabilities, including business processes and
                                    systems, from the developer to the receiving organization.
Vessel                              A watercraft, other than a seaplane on the water, used or
                                    capable of being used as a means of transportation on
                                    water (e.g., a ship).
Work Breakdown Structure            A project schedule used to manage the tasks, task
                                    relationships, and resources needed to meet project goals.




                                                                                        Page 19
   Changing Excise Files Information Retrieval System Development
    Requirements Resulted in Increased Costs and Schedule Delays



                                                   Appendix VIII

Management’s Response to the Draft Report




                                                           Page 20
Changing Excise Files Information Retrieval System Development
 Requirements Resulted in Increased Costs and Schedule Delays




                                                        Page 21
